<html>
<title> - PROPOSED FISCAL YEAR 2010 BUDGET REQUEST FOR THE NATIONAL PARK SERVICE</title>
<body><pre>[Senate Hearing 111-61]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-61
 
 PROPOSED FISCAL YEAR 2010 BUDGET REQUEST FOR THE NATIONAL PARK SERVICE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

   CONSIDER THE PRESIDENT'S PROPOSED FISCAL YEAR 2010 BUDGET FOR THE 
  NATIONAL PARK SERVICE AND PROPOSED EXPENDITURES UNDER THE AMERICAN 
                     RECOVERY AND REINVESTMENT ACT

                               __________

                             JUNE 16, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources


                  U.S. GOVERNMENT PRINTING OFFICE
51-435                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Burr, Hon. Richard, U.S. Senator From North Carolina.............     2
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1
Wenk, Daniel N., Acting Director, National Park Service, 
  Department of the Interior.....................................     3

                                APPENDIX

Responses to additional questions................................    25


 PROPOSED FISCAL YEAR 2010 BUDGET REQUEST FOR THE NATIONAL PARK SERVICE

                              ----------                              


                         TUESDAY, JUNE 16, 2009

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall The Subcommittee on Parks will come to order. 
Good afternoon.
    Mr. Wenk. Good afternoon.
    Senator Udall. The Subcommittee on National Parks meets to 
discuss the President's budget proposal for the National Park 
Service and park related expenditures under the American 
Recovery and Reinvestment Act. This is the first meeting of 
this subcommittee in this Congress and my first as chairman, of 
course the first meeting as the ranking member, Mr. Burr from 
North Carolina.
    The issues before this subcommittee which include not only 
National Park issues, but also historic preservation, national 
heritage areas, the Land and Water Conservation Fund, wild and 
scenic rivers and national trails are issues of personal 
interest to me. Are ones that are important in my home State of 
Colorado and to our Nation. Just as an example, the Omnibus 
Public Lands Act that President Obama signed into law earlier 
this year, included among its many provisions several items 
within this subcommittee's jurisdiction that are of particular 
interest in Colorado.
    I note a couple of them.
    The designation of most of Rocky Mountain National Park as 
wilderness, ending a more than 30-year effort to achieve that 
designation.
    The establishment of three national new heritage areas.
    Authority to purchase land from willing sellers along the 
Continental Divide National Scenic Trail.
    Much of the subcommittee's attention of this Congress will 
be on the large number of bills introduced dealing with 
National Parks and related issues. I anticipate that we will 
begin legislative hearings following the July recess.
    However, for our first hearing this year I thought it would 
be appropriate to invite the Acting Director of the National 
Park Service to discuss the Agency's proposed budget for the 
upcoming year and to review what steps have been taken so far 
in implementing funding under the American Recovery and 
Reinvestment Act. The Park Service has been underfunded for 
many years under administrations of both parties. There remains 
much that needs to be done just in terms of the maintenance 
backlog.
    For example in Colorado we have ongoing needs for basic 
road maintenance in parks. We've also been fortunate to have 
had a number of new parks created such as the Black Canyon of 
the Gunnison, the Great Sand Dunes and the Sand Creek Massacre 
National Historic Site, as well as the new wilderness areas in 
Rocky Mountain National Park. All of these important 
designations include funding the needs for facilities and 
services and a host of other land, wildlife and visitor 
management activities.
    Keeping these and other parks in a condition that maintains 
a quality visitor experience while protecting the environment 
is an ongoing challenge. But one that is vitally important as 
these parks compromise our national heritage. It is my hope 
that this hearing will provide the subcommittee with the 
opportunity to review the basic funding and policy challenges 
facing the National Park Service before we begin to consider 
new park related bills next month.
    I'd now like to recognize the ranking member from the great 
State of North Carolina, Mr. Burr, for any remarks he may have.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. I want to tell you 
how anxious I am to work with you in your new capacity. You 
have big shoes to fill in Senator's Akaka's leadership on the 
subcommittee.
    Dan, welcome.
    Mr. Wenk. Thank you, sir.
    Senator Burr. We're glad to have you here. I think every 
Member of Congress that has a national park truly believes that 
theirs is the most visited in the country. Only one of us 
though, can walk away with the prize and that's the Great 
Smokies.
    [Laughter.]
    Senator Burr. So I do have something relative to the parks 
to be engaged, concerned and excited all at the same time. I do 
share that with my colleagues from Tennessee. But as I remind 
them regularly, originally Tennessee was part of North 
Carolina. So it was our generosity that allowed them to have a 
State and to have two Senators.
    I look forward to what you've got to tell us today. As I 
look at the 2010 proposed budget, $433 million that's included 
in 2010. It will impact various aspects of park services. 
Particularly I'd like to hear more about the increases in 
funding for land acquisition and State assistance programs.
    Senator Udall and I led an effort this year on a letter 
requesting that Congress support the administration's request 
for additional funding to operate and protect our park facility 
and resources. It's my hope that this funding will move forward 
in the appropriations process quickly.
    I'm also interested to hear from you, director, what you 
foresee as it relates to the fee free weekends affecting funds 
generated by the recreational fee programs and if an increase 
can still be expected. I support this initiative as a way to 
allow more visitors to experience our parks.
    Again, I'd like to thank the director and thank the 
chairman, and I ook forward to what you have to say.
    Senator Udall. I thank the ranking member for his remarks. 
We had an excellent working relation in the House of 
Representatives. I look forward to working with him here on 
this important subcommittee. In the meantime we will do all we 
can in Colorado to increase the visitation numbers at Rocky 
Mountain National Park to at least give the Great Smoky 
National Park a competition.
    Acting Director Daniel Wenk, we'd like to hear from you. 
You've been accompanied by Bruce Sheaffer who is your 
Comptroller. So, welcome. Please proceed.

  STATEMENT OF DANIEL N. WENK, ACTING DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to appear before you 
today on the National Park Service's fiscal year 2010 budget 
request and the proposed expenditures under the American 
Recovery and Reinvestment Act. If I may, Mr. Chairman, I'd like 
to submit my entire statement for the record and summarize my 
remarks.
    Senator Udall. Without objection.
    Mr. Wenk. We sincerely thank you for your continuing 
support of the work we do as stewards of many of our Nation's 
most treasured natural and cultural resources.
    For fiscal year 2009, Congress increased the National Park 
Service operations budget by $100 million which will go a long 
way toward helping our parks to provide better services to our 
visitors.
    To improve the protection and preservation of our 
resources. To make them accessible to the public.
    On August 15, 1916, the National Park Service was formed to 
manage special places set aside to reflect the character of our 
Nation and preserve them for generations to come. As the 
National Park Service nears its 100th anniversary as stewards 
of this Nation's most cherished natural and cultural resources 
the challenge of managing these special places has grown more 
complex, but no less imperative.
    Through the fiscal year 2010 budget request the National 
Park Service will strive to achieve the goals of the Secretary 
of Interior's Protecting America's Treasured Landscapes 
initiative and prepare for another century of conservation, 
preservation and enjoyment.
    The National Park Service will build park operational 
capacity, tackle climate impacts and enhance critical 
stewardship programs at our parks.
    Engage our youth in conservation.
    Effectively maintain National Park Service facilities. 
Ensure organizational capacity in professional development.
    The 2010 budget increase of 171 million for the Park 
Service provides the impetus to change the National Park system 
to meet the expectations of the public for a legacy that is 
uniquely American. In preparation for the 100th anniversary, 
the budget request provides the means to engage Americans in 
getting reacquainted with nature's wonders in the Nation's 
proud history and for international visitors to enjoy these 
special places and the stories of the country. The fiscal year 
2010 budget request reflects the President's commitment to our 
national parks with a $100 million program increase in park 
operations to maintain facilities, preserve cultural and 
natural resources and protect the investments being made 
through the American Recovery and Reinvestment Act of 2009.
    The fiscal year 2010 budget request safeguards the 
investments made in our parks and builds upon the rich 
philanthropic history of the service by including a $25 million 
matching grant program for signature park projects. On the 
fiscal year 2010 budget request I'd like to refer you to my 
prepared statement and just touch a few of the highlights. Our 
emphasis continues to be on increasing funding for park 
operations.
    The fiscal year 2010 budget request includes $100 million 
focused on 5 key components within the operation of the 
National Park System account: $73.7 million to enhance park 
operations capacity, $15.9 million in the category of 
stewardship and education, $5.4 million into support the 
National Park Service employee training and development, $5 
million as part of the Department's creating a 21st century 
Youth Conservation Corp Initiative, and $10 million as part of 
the Department's initiative on tackling climate impacts for 
collaboration with Interior Bureaus and other State and Federal 
agencies that monitor climate change.
    In addition the fiscal year 2010 budget request proposes a 
multiyear incremental approach in support of the President's 
commitment to fully fund the Land and Water Conservation Fund 
programs at 900 million annually across the Department of 
Interior and the United States Forest Service.
    For the National Park Service the fiscal year 2010 budget 
proposes funding totaling $98 million in discretionary 
appropriations of which $68 million is available for the land 
acquisition projects and administration.
    Congress also made available $750 million of the American 
Recovery and Reinvestment Act funding for the National Park 
Service directly and an additional $170 million for park roads 
through the Department of Transportation.
    Also, $15 million in grants will go to protecting and 
restoring buildings at historically black colleges and 
universities.
    This provides the National Park Service with a unique 
opportunity to make investments in projects that will achieve 
long term benefits to the public. We plan to use these funds to 
complete approximately 800 much needed projects that will 
stimulate our economy and benefit millions of visitors that 
come to our parks each year. Last week Secretary Salazar 
informed President Obama that the National Park Service will 
begin economic recovery projects at 107 National Parks within 
the next 100 days.
    These projects fall into six major categories that will 
allow us to make an investment in some of our irreplaceable 
assets by restoring facilities, landscapes and habitat, 
spurring renewable energy retrofits in parks andcreating jobs 
in park units throughout our country. These categories include:

    Construction projects.
    Deferred maintenance projects.
    Energy efficient equipment replacement efforts.
    Trails projects to restore trails for safer use and extend 
the life.
    Abandoned mine land safety projects to remedy serious 
health and safety concerns.
    Road maintenance projects to rehabilitate and preserve 
deteriorated road surfaces.
    Mr. Chairman, in closing may I say again how much we 
appreciate your support and the support of the subcommittee for 
the varied programs of the National Park Service. Our employees 
are excited about the work we will be doing to prepare our 
national parks for our second century of stewardship. We look 
forward to working with you in meeting the challenges ahead.
    Mr. Chairman, that concludes my remarks. We would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Wenk follows:]

 Prepared Statement of Daniel N. Wenk, Acting Director, National Park 
                  Service, Department of the Interior

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today at this oversight hearing on the 
FY 2010 President's request for the National Park Service (NPS).
    We appreciate the support that Congress has provided for our 
continuing work as stewards of many of our Nation's most treasured 
natural and cultural resources. For FY 2009, Congress increased the NPS 
operations budget by $100 million, which will go a long way toward 
helping our parks to provide better services to our visitors, to 
improve the protection and preservation of our resources and to make 
them accessible to the public. Congress also made available $750 
million of the American Recovery and Reinvestment Act funding for the 
National Park Service directly and an additional $170 million for park 
roads through the Department of Transportation. These funds will help 
us make significant, much-needed investments in facilities, equipment, 
and roads to show measurable improvements in facility conditions.
    Through the President's FY 2010 budget request, the National Park 
Service will strive to achieve the goals of the Secretary of the 
Interior's Protecting America's Treasured Landscapes initiative and 
prepare for another century of conservation, preservation, and 
enjoyment. The NPS will build park operational capacity, tackle climate 
impacts and enhance critical stewardship programs at parks, engage our 
youth in conservation, effectively maintain NPS facilities, and ensure 
organizational capacity and professional development.
    The 2010 budget increase of $171.0 million (+7%) for all National 
Park Service programs provide the impetus to shape the national park 
system to meet the expectations of the public for a legacy that is 
uniquely American. This comparison excludes Recovery Act funding. In 
preparation for the 100th anniversary in 2016, the budget request 
provides the means to engage Americans in getting reacquainted with 
nature's wonders and the Nation's proud history, and for international 
visitors to enjoy these special places and the stories of the Country.
    The FY 2010 budget request proposes total discretionary 
appropriations of approximately $2.7 billion and includes $433 million 
in mandatory appropriations for a total budget authority of $3.1 
billion. This includes an increase of $171.0 million above the FY 2009 
discretionary appropriations and an increase of $34.2 million in 
mandatory appropriations.
    The FY 2010 budget request reflects the President's commitment to 
our national parks with a $100 million program increase in park 
operations to maintain facilities, preserve cultural and natural 
resources, and protect the investments being made through the American 
Recovery and Reinvestment Act of 2009. The FY 2010 budget request 
safeguards the investments made in our parks and builds upon the rich 
philanthropic history of the Service by including a $25 million dollar 
matching grant program for Park Partnership projects.

             OPERATIONS OF THE NATIONAL PARK SYSTEM (ONPS)

    The FY 2010 budget request includes $2.6 billion for ONPS, an 
increase of $134.5 million (+6%) over the 2009 enacted level. This 
includes a $100 million programmatic increase and funding for increased 
fixed costs of $41.0 million. The 2010 budget is focused on five key 
components within the ONPS account: Park Operations, Climate Impacts, 
Youth Programs, Stewardship and Education, and Professional Excellence.

          1. Park Operations--The budget proposes increases totaling 
        $73.7 million to enhance park operations capacity. Highlights 
        include $57.5 million for specific park base increases at 212 
        parks, $8.0 million to support the restructuring of major 
        procurement and contracting services in parks that will allow 
        parks to share acquisition resources, $5.0 million to support 
        building the operational capacity in sworn officers and 
        civilian support staff for the United States Park Police, $0.5 
        million for park safety and regulations, $0.5 million to 
        improve commercial services management at parks, $1.6 million 
        in administrative support and public health and safety, and 
        $2.2 million in facility maintenance to expand emergency storm 
        damage coverage used to provide safe, uninterrupted visitor use 
        of facilities.
          2. Climate Impacts--The National Park Service FY 2010 budget 
        request includes $10.0 million as part of the Department's 
        initiative on Tackling Climate Impacts for collaboration with 
        Interior bureaus and other State and Federal agencies that 
        monitor climate change. The budget request will provide $5.5 
        million to develop land, water and wildlife adaptation 
        strategies, $3.0 million to build a climate impact monitoring 
        system using the existing NPS natural resource network, $0.7 
        million to provide project seed money to the field, and $0.8 
        million to assemble a Climate Impact Response Office that will 
        develop a service-wide approach to research.
          3. Youth Programs--The 2010 budget request includes an 
        increase of $5.0 million as part of the Department's Creating a 
        21st Century Youth Conservation Corps initiative to increase 
        youth partnership programs in the National Park Service. The 
        National Park Service is dedicated to engaging America's youth 
        in developing a life-long awareness of and commitment to 
        preserving our nation's exceptional natural and cultural 
        resources through educational, vocational and volunteer service 
        opportunities. The NPS Youth Internship Program will introduce 
        high school and college-aged youth to activities in land 
        conservation and interpretation of natural and cultural 
        resources. Internships involve students in intellectually 
        challenging assignments that allow them to work side-by-side 
        with park staff on projects that provide vocational and 
        educational opportunities in resource protection, research, and 
        the visitor experience at NPS sites.
          4. Stewardship and Education--The FY 2010 President's budget 
        request proposes increases totaling $5.9 million for resource 
        stewardship and interpretive programs. The proposal includes 
        $2.0 million for Historical and Archeological Inventories and 
        $2.5 million to implement the NPS Ocean Park Stewardship plan 
        to enhance research, operational, and educational programs. An 
        increase of $1.4 million will advance the Interpretation and 
        Education Renaissance Action Plan and institute a web-learning 
        pilot program to provide information for internet visitors of 
        all ages.
          5. Professional Excellence--The most valuable assets 
        available to the Park Service are its more than 20,000 
        dedicated employees. An efficient and effective park system 
        requires that NPS invest in their professional development. An 
        increase of $3.9 million will directly support this investment, 
        including $2.7 million to enhance the Service's leadership and 
        management succession program and $1.2 million to support the 
        expansion of the Superintendents Academy. Nearly $1.0 million 
        is proposed to automate the labor-intensive human resource 
        processes that are critical to achieving efficient operations 
        and recruiting new and diverse employees and $0.5 million is 
        requested to ensure acquisition employees receive adequate 
        training.

    The FY 2010 budget request also details a restructuring that 
recalibrates funding among the programs within the ONPS account. This 
realignment brings budget requests in line with expenditures, providing 
Congress with a more clear understanding of the needs of the Park 
Service and the use of appropriated dollars to support activities.

                    PARK PARTNERSHIP PROJECT GRANTS

    The FY 2010 budget request continues to support the partnership 
aspect of the Protecting America's Treasured Landscapes initiative 
through a $25.0 million Park Partnership matching grants program. The 
program invites individuals, foundations, businesses, and the private 
sector to contribute donations to support signature programs and 
projects in our national parks. Partners in these projects are required 
to match the Federal funding, at a minimum of 50 percent of the cost, 
with private philanthropic donations.

                    LAND AND WATER CONSERVATION FUND

    The 2010 President's request includes a renewed commitment of 
resources to programs funded through the LWCF and proposes a multi-year 
incremental approach to fully fund these programs at $900.0 million 
annually across the Department of the Interior and the U.S. Forest 
Service. For the National Park Service, the FY 2010 budget proposes 
funding totaling $98.0 million in discretionary appropriations, of 
which $68.0 million is available for land protection projects and 
administration. Included within the proposal is $4.0 million to provide 
grants to States and local communities to preserve and protect Civil 
War battlefield sites outside the national park system. The request 
also provides $30.0 million, including administrative costs, for State 
Conservation Grants funded by the LWCF. An additional $10.0 million for 
State Conservation grants is available from the LWCF in mandatory 
appropriations.

                              CONSTRUCTION

    The $206.0 million requested for Construction includes $116.8 
million for line-item construction projects. This request, along with 
recreation fees, park roads funding, and the funding made available 
through the American Recovery and Reinvestment Act, will provide 
substantial resources towards protecting and maintaining existing park 
assets.

                       HISTORIC PRESERVATION FUND

    The NPS plays a vital role in preserving the Nation's cultural 
history through a variety of programs that address preservation needs 
nationwide. The 2010 budget for the Historic Preservation Fund is $77.7 
million, including $20.0 million for Save America's Treasures and $3.2 
million for Preserve America grants. The budget requests $54.5 million 
for Grants-in-Aid to States, Territories and Tribes for Historic 
Preservation. The request includes an additional $4.0 million for 
States and Territories and $1.0 million for Grants-in-Aid to Tribes.

              NATIONAL RECREATION AND PRESERVATION (NR&P)

    The National Recreation and Preservation appropriation funds 
programs connected with local and community efforts to preserve natural 
and cultural resources. Highlights within the total request of $53.9 
million include $15.7 million for National Heritage Areas and an 
increase of $0.5 million to provide technical assistance to communities 
through the Rivers, Trails, and Conservation Assistance program.

                 FIXED COSTS AND OFFSETTING REDUCTIONS

    The FY 2010 budget request proposes $43.2 million to fully fund 
fixed costs, enabling parks to strive toward the goals of the Park 
Service without absorbing non-discretionary fixed costs increases. The 
proposal reflects increased costs for pay, health care, services 
provided by other agencies, and the Department's Working Capital Fund.
    The budget request proposes decreases in funding totaling $46.6 
million. Reductions reflect the elimination of funding for non-
recurring costs such as $4.0 million for the Presidential Inauguration 
and $5.8 million in congressional earmarks. An estimated $2.0 million 
in savings will be gained from reduced operational costs due to energy 
efficient retro-fitting of federal buildings. The budget proposes a 
reduction of $32.4 million in Line-Item Construction primarily due to 
reduced expenditures in Everglades (in response to available 
unobligated balances) and increased commitments under the Recovery Act.

                        PERFORMANCE INTEGRATION

    In formulating the FY 2010 budget request, the National Park 
Service utilized a variety of tools to incorporate performance results 
into the decision-making process. These tools include the Budget Cost 
Projection Module, the Core Operations Analysis, the Business Planning 
Initiative, and the NPS Scorecard, as well as continued program 
evaluations. These tools are used to develop a more consistent approach 
to integrating budget and performance across the Service, as well as to 
support further accountability for budget performance integration at 
all levels of the organization.

             AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009

    The National Park Service received $750 million through the 
American Recovery and Reinvestment Act of 2009. This provides the 
National Park Service with a unique opportunity to make investments in 
projects that will achieve long-term benefits for the public. We plan 
to use these funds to complete approximately 800 much-needed projects 
that will stimulate our economy, provide jobs in communities across the 
nation, and benefit millions of visitors that come to our parks each 
year. The NPS will begin economic recovery projects at 107 national 
parks in the next 100 days. Also, $15 million in grants will go to 
protecting and to restoring buildings at historically black colleges 
and universities.
    These projects fall under six major categories that will allow us 
to make investments in some of our irreplaceable assets by restoring 
facilities, landscapes and habitat, spurring renewable energy retrofits 
in parks, and creating jobs in park units throughout our country. These 
categories include:

          (1) construction projects to upgrade facilities for health, 
        safety, and energy efficiency, demolish those facilities that 
        are obsolete, and replace or repair critical infrastructure;
          (2) deferred maintenance projects to replace utility, water, 
        and wastewater systems, restore outdated or damaged facilities, 
        and stabilize historical structures to extend their useful 
        life;
          (3) energy efficient equipment replacement efforts to replace 
        aging vehicles, heavy equipment, and HVAC systems with next 
        generation energy efficient equipment;
          (4) trails projects to restore trails for safer use and 
        extend the life of trails by controlling erosion, repairing 
        trail surfaces, and replacing deteriorated boardwalks;
          (5) abandoned mine lands safety projects selected on their 
        ability to maintain access and allow for airflow at mine 
        openings to remedy serious health and safety concerns at the 
        sites and to allow mine openings to continue to be used as 
        wildlife habitat; and
          (6) road maintenance projects to rehabilitate and preserve 
        deteriorated road surfaces along our 5,450 paved miles of 
        public park roads, 6,544 miles of unpaved roads, the equivalent 
        of 948 paved miles of parking areas.

    Mr. Chairman, this concludes my summary of the FY 2010 budget 
request for the National Park Service. We would be pleased to answer 
any questions you and the other members of the subcommittee may have.

    Senator Udall. Thank you, Director Wenk, for being to the 
point and for giving us a summary of your proposals. If I might 
I'd like to turn further to the American Recovery and 
Reinvestment Act. I know you're still in the early stages of 
getting these funds directed into many, if not all of the 
national park units.
    Do you feel in general your agency has been able to meet 
the goals of the Recovery Act? After you've answered that I'd 
like to go to some specific questions.
    Mr. Wenk. Absolutely. I believe that our projects will put 
Americans to work. We will find opportunities for our youth. We 
will reinvigorate our national parks.
    Senator Udall. You mentioned some of the numbers. I don't 
want to go back over those. But if they are of use to you as 
you answer this next round of questions, please feel free to do 
so.
    But can you tell me how many of the funds have been spent 
to date? Are you on track, do you believe, to spend your funds 
by September 2010 as directed by the Recovery Act?
    Mr. Wenk. We are on track to spend our funds. We intend to 
obligate the entire sum that's been allocated. To date 
approximately $4 million have been obligated.
    Senator Udall. Out of a total of?
    Mr. Wenk. Of about $750 million.
    Senator Udall. Right.
    Mr. Wenk. That low number is due to the time it does take 
for completion of the projects once we got approval, plus going 
through the contracting procedures and getting them under 
contract. We expect those numbers to accelerate quickly.
    Senator Udall. Can you tell me how you've gone about 
deciding where to direct that funding? As I understand it, in 
some regions you've met with stakeholder groups, you've 
solicited input on how that recovery money should be spent. Can 
you tell me how that interaction is going and your decision 
process on the spending?
    Mr. Wenk. First of all, Mr. Chairman, the projects that are 
on our list are projects of long standing need to the National 
Park Service. They are not new projects. But we've been able to 
accelerate from our 5-year line item construction program, from 
the repair rehabilitation program, and the cyclic maintenance 
programs.
    We've been able to bring those forward. Those projects that 
were, if you will, shovel ready and could be obligated within 
the timeframe of having all the funds obligated prior to the 
end of the fiscal year--or by September 2010. Where we have had 
stakeholders who have brought money to the table and could take 
advantage of those opportunities, we have.
    But primarily these have been from long standing programs 
within the National Park Service priorities.
    Senator Udall. When you say stakeholders who could bring 
money to the table. These are private dollars that can match 
Federal dollars? Can you give us a little bit of a sense of how 
that might work?
    Mr. Wenk. Actually I'm going to turn to my Comptroller. I'm 
not sure if we had any of those in the American Recovery and 
Reinvestment Act. In our budget we have $25 million of 
partnership money. That is where we would see a shared 
opportunity.
    In the Recovery Act I think we may be taking advantage of--
are we taking advantage of any multi-funding?
    Mr. Sheaffer. No.
    Mr. Wenk. I don't know that we are. I may have misspoke 
earlier.
    Senator Udall. Mr. Sheaffer, did you want to comment?
    Mr. Sheaffer. As Mr. Wenk said, these were projects that 
were drawn down from long standing backlog lists, unfunded 
backlog lists, if you will. To develop from scratch a new 
program and get it obligated in 18 months would have been an 
impractical solution. Honestly, the work, the projects we 
selected had already been vetted, merit based priority set, and 
passed up through the ranks from parks and regions on standing 
lists, as Dan said.
    So that's where the projects, I think every one, was drawn 
from.
    Mr. Wenk. We do have some circumstances, Mr. Chairman, 
where we have selected a project from our list that we will be 
doing in its entirety that perhaps will stimulate a partner to 
do additional work such as Ellis Island. In some instances, we 
will do a complete project that will hopefully be an impetus 
for a partner organization, to raise money and to continue 
further with that project. However, there's not a co-mingling 
of funds.
    Senator Udall. Is it fair to say your approach has been 
similar to the one that the U.S. DOT and the State DOTs, that 
is Departments of Transportation taken which there are plenty 
of projects in the pipeline, plenty of projects that have been 
approved, but lacked the funding necessary to move ahead. 
You've taken that same approach in the Park Service.
    Mr. Wenk. That would be a very accurate statement.
    Senator Udall. If I might move quickly. You mentioned 
abandoned mine clean up. I'm curious, particularly given I've 
been working on this for a number of years in the House. I 
brought that passion, interest, over here to the Senate.
    How many abandoned mines and contaminated sites exist on 
Park Service land? How much funding you're allocating to 
address those sites? What funding may be needed in the best of 
worlds, to address that overall need?
    Mr. Wenk. I'll start with the last part of the question 
first. We believe the last survey we did shows that a rough 
estimate approaching $300 million would be necessary to address 
the abandoned mine issues.
    Senator Udall. Just on Park Service lands?
    Mr. Wenk. Yes.
    Senator Udall. Yes.
    Mr. Wenk. We think there's about 3,100 mines or excuse me, 
sites that may have as many as 8,400 features which could be 
multiple issues on one site. This year through the American 
Recovery and Reinvestment Act, I believe we have $23 million 
that we're dedicating to it funding which will work. I'm trying 
to remember the exact number of mines we'll work on, 32 
projects in 18 parks in 12 States that we'll address this year, 
or between now and September 2010.
    Senator Udall. So a start, but less than 10 percent of the 
need that you've----
    Mr. Wenk. Correct.
    Senator Udall. Put on paper, monetarily.
    Mr. Wenk. That's a rough estimate.
    Senator Udall. Yes.
    Mr. Wenk. I would say it's a very rough estimate. We don't 
know what the appropriate mitigation approach will be on many 
of those mines. Those are estimates that were developed in 
response to a recent IG report.
    So I think they are probably in order of magnitude.
    Senator Udall. Let me turn to the Senator from North 
Carolina for his questions. I think we certainly will have a 
second round of questions as well.
    Senator Burr. Thank you, Mr. Chairman.
    Mr. Wenk, what percentage of the American Recovery and 
Reinvestment Act do you anticipate would go to deferred 
maintenance?
    Mr. Wenk. Deferred maintenance, it's sort of in our strict 
definition between maintenance on smaller level projects 
between maintenance and trails, is almost $140 million of that 
$750. But there is a lot of deferred maintenance that will be 
dealt with in terms of the construction program which is about 
$589 million total. But we will be working on facilities in 
terms of some major rehabilitation.
    We'll also be dealing with roads rehabilitation. So I don't 
know that I can pull an exact number. But I would suggest that 
the majority of that $750 would be on deferred maintenance.
    Senator Burr. Yes. I looked very intently at the 6 
categories that you listed under the American Recovery Act and 
deferred maintenance projects to replace utility water, those 
items that directly affected the ability for a park to 
function.
    Mr. Wenk. Yes.
    Senator Burr. Not to expand, to function, has been sort of 
the annual Mecca to the Hill, number 1 thing that the Park 
Service needed.
    I'm trying to understand when given a pot of $750 million 
than what percentage of that did you allocate to those 
maintenance projects that allow that park to function for the 
people walking in? Not in the future with future expansion, 
with necessarily the mind peace. I mean we all agree that's got 
to be done.
    What percentage went to that maintenance problem which was 
the number 1 issue?
    Mr. Wenk. Do you have?
    Mr. Sheaffer. Projects that were tagged with a deferred 
maintenance element are roughly $600 million of the total.
    Senator Burr. So $600 million of $750 million.
    Mr. Sheaffer. Right. Would address some, all or a portion 
of a deferred maintenance issue as part of their component. 
Yes, sir.
    Senator Burr. The amount of deferred maintenance needs 
prior to the American Recovery Act was how much?
    Mr. Sheaffer. The current deferred maintenance backlog is a 
bit over $9 billion.
    Senator Burr. In the 2010 proposed budget you listed five 
categories of investment. You referred to it as five key 
components within the ONPS account. Given, what did you say, $9 
billion?
    Mr. Sheaffer. Yes, sir.
    Senator Burr. Nine billion dollars in deferred maintenance 
we're addressing $600 million.
    Mr. Sheaffer. In the American Recovery.
    Senator Burr. In the American Recovery. So you devote $10 
million to climate impacts. Walk me through that. We've got a 
finite amount of money. We're trying to get these parks up.
    We're starting a new program, in essence, right?
    Mr. Sheaffer. For us, it is our first year for putting 
resources.
    Senator Burr. So with a limited amount of resources and 
with this backlog of maintenance needs where--walk me through 
how this is a priority to start a new program.
    Mr. Wenk. The priority comes from the fact that climate 
change was going to have a dramatic effect on our National 
Parks. Our National Parks, in many cases, in many ways, are 
places where we're going to see the effects of climate change 
as it affects our ability to preserve our resources and to 
leave them unimpaired for future generations. There's issues in 
terms of climate change especially along the coast and along 
major river ways, that will affect archeological resources in 
our parks.
    With a $10 million expenditure, we're trying to establish 
an office to look at some of the inventory and monitoring that 
we need to do to understand the effects of climate change. To 
look at adaptation techniques that we can use to preserve these 
resources that we're entrusted to protect. If we don't take 
these steps, I believe we will lose resources that we will 
never be able to replace.
    Senator Burr. Do you have a lack of confidence that 
elsewhere in the Federal Government we're not doing the right 
amount of study on climate change? That we're going to now 
duplicate it within the Park Service?
    Mr. Wenk. It's not a lack of confidence in the rest of the 
government. It's the confidence that we, as part of the 
government need to work collaboratively with the other Bureaus 
within the Department of Interior to address this issue in a 
manner that we will understand the impacts and address future 
strategies for how best to protect the resources that we have.
    Senator Burr. I raise the question because it lessens my 
concern about how important the public/private partnerships are 
when you divert $10 million that we could use to leverage 
private money to put in the parks. It lessens the urgency, I 
think, of $9 billion worth of backlogs when you're diverting 
money over. There's no piece of the Federal Government that's 
not looking for money to do studies on climate change.
    I think at some point we can rely on other's information 
once we accumulate the information we need to implement that in 
a collaborative way. That's one thing. But, you know, this may 
be one member's concern about how we've prioritized that $10 
million.
    But I look at that. That's $20 million if you leverage it 
against private dollars to fund parks under the structure of 
the Centennial Challenge as an example. I think a missed 
opportunity in my estimation.
    Let me move, if I could, to some other areas. Recently the 
National Park Service received some attention regarding the 
utilization of eminent domain to take the land from private 
land owners for Flight 93 Memorial. Eminent demand is a tool 
that should only be used when absolutely necessary.
    Could you please provide an update on the legal status of 
the land in question?
    Mr. Wenk. Mr. Chairman, I believe it was approximately 10 
days ago, we met with the landowners in the area of Flight 93. 
Last week, National Park Service staff met with the landowners 
in Somerset County.
    I'm pleased to say that we have made significant progress 
on reaching a negotiated settlement with those landowners who 
would in fact negotiate with us in Somerset County. I believe 
that we're very close to an agreement in principle with those 
land owners. We're hopeful if there is the use of eminent 
domain it will only be used in agreement with the land owner to 
settle some issues that we both agree need to go that route.
    Senator Burr. How long have we been negotiating?
    Mr. Wenk. I think we've been negotiating for 2 to 3 years. 
I would say that the last week we probably negotiated with much 
more success than we have in that past 2 to 3 years.
    Senator Burr. Do we currently own land for this memorial?
    Mr. Wenk. Yes, we do. The families of Flight 93 purchased 
land from the PBS Coal Company. We purchased it from them. So 
we do have some under our control now.
    Senator Burr. That was 1,000 acres?
    Mr. Wenk. Approximately.
    Senator Burr. The negotiations that are currently underway 
are for an additional $500?
    Mr. Wenk. A little bit less than that, between 400 and 500 
hundred acres, yes. There are 2 large landowners; the 
negotiations on the land price in one case has been completed. 
The other case we've agreed to go to eminent domain with them.
    You may have heard about the agreement with the Svonavecs 
in January of this year.
    Senator Burr. Shed some light for me, if you can, for the 
purposes of this memorial. What drives the need for 1,500 acres 
for the memorial?
    Mr. Wenk. A few things. There's the memorial itself. I'd be 
happy to provide you with the designs that have been created 
for the memorial. The memorial, will take, I believe it's in 
the area of, I'm going to say, 400 plus or minus acres, and 
another 300 to 400 hundred for the memorial location itself. 
Plus you have the access roads and some space that you need to 
protect the visual quality of that memorial.
    Senator Burr. Share for us for the record the plans if you 
would.
    Mr. Wenk. I would be pleased to.
    Senator Burr. For the total 1,500 acres.
    I think most Members would agree, we want to do a memorial 
there that is sufficient and is done in the best possible 
fashion that we can. But I would love to understand better why 
it's 1,500 acres that's required. It's pretty tough for me to 
look at a situation where to complete that task we would 
actually use eminent domain to take somebody's land.
    I think the threshold for that has to be awfully 
compelling. I would love to look at the plans and then possibly 
follow up with some questions about how many alternative plans 
we might have looked at that would accommodate, shy that one 
last land owner. How many acres are we talking about with 
eminent domain?
    Mr. Wenk. I would say it's approximately 400. The one 
landowner we reached agreement with in January had 274 of that 
400. That was the Svonavec property that I told you about 
earlier.
    Senator Burr. So we're really talking about 130 acres.
    Mr. Wenk. I believe so. But the acreage we're talking 
about, Mr. Burr, is literally in the area of the crash site 
itself.
    Senator Burr. Ok. Ok. That helps me to understand a little 
better. I thank you.
    Senator Udall. I thank the ranking member for some 
insightful questions. I look forward to working with you to 
ensure that we have the right footprint and that we use eminent 
domain only as a last resort.
    If I might let me pick up on the ranking member's interest 
in the climate change and what the Park Service is doing. I 
know, serving on the Sites Committee on the House side we 
worked on an ongoing basis to ensure that those dollars were 
being used in a really cost effective way and there wasn't 
duplication in some of the agencies that were charged more 
broadly with studying climate change. But I do note that the 
mission of the Park Service is, as is set forth in the Organic 
Act is to leave our country's natural and cultural heritage 
unimpaired for future generations.
    Now within that context climate change seems like a 
daunting challenge for your agency, for our agency. I think you 
did talk a little bit about the components the Park Service's 
strategy in answering Senator Burr's questions. But I don't 
know if you wanted to add anything to that survey, Mr. Wenk.
    Mr. Wenk. I think we believe that the climate change issue 
is perhaps one of the most far reaching and challenging aspects 
that we're going to face as we move forward into our next 
century. What we're trying to do is we're trying to establish 
the framework, if you will, in terms of how we're going to deal 
with that challenge. We're trying to look at some adaptation 
strategies that might work in protecting the wildlife or the 
habitats that we have, that we are charged to protect.
    So I believe that the $10 million initial investment, if 
you will, is an investment that will really enable us to work 
with our sister bureaus within the Department, with the Forest 
Service, with NOAA and others to really, if you will, come to 
grips with the magnitude of the change, the potential impact on 
the National Park Service site and look at ways that we can 
effectively deal with some of the changes that we'll be facing.
    Senator Udall. For the record, I understand that there's 
$133 million that's allocated among 5 agencies in the 
Department of Interior at this initiative. I think you talked 
generally about working with the other agencies within the 
Department of Interior. Coordination is going to be critical.
    Do you believe that there is that spirit of collaboration, 
at least as you begin to do this work?
    Mr. Wenk. Absolutely. In fact, starting tomorrow there's a 
meeting within the Department of the Interior with Deputy 
Secretary Hayes as well as with the Science Advisor with all 
the Bureaus up at the National Conservation and Training Center 
in Shepherdstown. We're literally going to be looking at how we 
coordinate, how we work together, to make sure we're not 
duplicating efforts, to make sure we have a solid approach to 
identifying the issues and potential management strategies to 
deal with it.
    Senator Udall. Is it fair to suggest that some of the work, 
if not most of the work, that would be undertaken in the 
climate change initiative is in addition on to what you're 
biologists and your scientists are already doing in 
understanding ecosystems and understanding wildlife use 
patterns etcetera? I think if you would respond to that.
    Mr. Wenk. I think that's a fair characterization. We do 
have a Natural Resource and Stewardship in Science program 
within the National Park Service. That program has looked at a 
variety of things.
    Looking at vital signs of our national parks, for example, 
is a program that links 270 parks linked together, if you will, 
in 32 like equal regions. We evaluate the vital signs of those 
parks so we can get some understanding of the impacts that are 
going on out there even today.
    Senator Udall. Let me, if I might, return to questions I 
asked about abandoned mine clean up. There has been an effort 
to pass Good Samaritan legislation that would provide ways in 
which volunteers and non-profits could help do that work in a 
very cost effective way. At the same time keep faith with 
liability provisions of the Clean Water Act as well as Super 
Fund considerations.
    Do you believe that the Park Service could benefit from 
Good Samaritan volunteers to work to clean up these sites and 
in effect the agency, the Park Service that is, would benefit 
from addressing these Clean Water Act liabilities that now are 
in the law and make it difficult?
    Mr. Wenk. I believe that that probably has. In terms of 
benefiting from the Good Samaritan, I believe that we'd have to 
look at individual sites. I think there probably are a number 
of sites that would lend themselves to that kind of cooperative 
work. I think we'd probably have to evaluate that on an 
individual basis.
    But we'd certainly want to that and would hope to do that.
    Senator Udall. Yes. I would note that certainly the Park 
Service has made increasing use of volunteers. I think there's 
a greater sophistication across the board if you will, with 
many, many groups that have sprung up, friends of this park, 
friends of that park. I hope we can harness that excitement and 
that affection, that love for these national parks that exist 
in all the communities around every national park.
    Mr. Wenk. I agree. Oftentimes our friend organizations are 
focused on particular areas of interest within parks. It's not 
uncommon for some parks to have more than one friends group 
that might be focused on different kinds of initiatives.
    Senator Udall. I would note that my friend Senator Barrasso 
has arrived from the great State of Wyoming. I wanted to give 
him an opportunity to also ask some questions of the panel.
    Senator Barrasso. Thank you very much, Mr. Chairman. I 
appreciate it. I was with some wonderful girl scouts from 
Wyoming and visiting with them.
    I'm sorry for being a little late. I had a chance to talk 
to Senator Burr as he was leaving and I was coming in. I know 
he raised the issue with you of the maintenance backlog.
    You know, in the President's budget it's notable that the 
Park Service has chosen to decrease the construction budget, 
but this is accomplished by covering the construction needs 
with stimulus funds. So I'm just curious it seemed to me there 
was an opportunity for the Park Service to catch up on the 
facilities maintenance backlog. I'm not sure that we're really 
doing that.
    Mr. Wenk. There is a capacity issue that we have within the 
National Park Service in terms of managing the planning, design 
and construction process with the vast majority of that $750 
million going to those construction contracting, if you will, 
requirements for management. The reduction of the line item 
construction program in 2010 is, we certainly hope, a temporary 
reduction. But it really gets to a capacity issue. We still 
have the need for a robust construction program.
    Senator Barrasso. I'm wondering about acquisition too. I 
mean some of the money is being spent now on land acquisition 
or new Federal employees in 2010. So if we acquire more acres 
and more employees in 2010, how are we going to keep up those 
acres and the employees in 2011 when the need for construction 
funding returns and there isn't the stimulus money.
    Mr. Wenk. I'm not sure I fully understand your question, 
Mr. Barrasso. The moneys that are being spent under the 
American Recovery and Reinvestment Act are being accomplished 
almost totally through contracts. They are not being spent on 
hiring government employees.
    If I'm not answering your question, I'm sorry. So it's not 
an issue of trying to find additional employees to take that 
place. They'll come in. Do that work. They will leave the park 
area.
    Senator Barrasso. But some money is used on acquiring more 
lands. Is that correct?
    Mr. Wenk. No.
    Senator Barrasso. No money at all from the President's 
budget is being used?
    Mr. Sheaffer. In the President's budget, yes.
    Senator Barrasso. Yes. So that's the concern that I have. 
If we're spending more money in the President's budget to 
acquire land and we don't have some of this additional funding. 
Aren't we just going to be compounding our problem by having 
more land to manage without the resources put into that land. 
We have a backlog right now of what we need to do. Isn't that 
just going to compound the problem?
    Mr. Wenk. I don't think it has to compound the problem at 
all, Mr. Barrasso. There's some cases where the land we would 
purchase are in holdings within National Parks where we 
actually may have a higher management cost to manage that land 
as an in holding than we would as a continuous park area.
    Senator Barrasso. So you're saying it's going to cost less 
to manage more?
    Mr. Wenk. In some cases.
    Senator Barrasso. Because of what you're able to pick up 
some areas, you're not going to have go around.
    Mr. Wenk. Or you're not going to have to manage for those 
special park uses that take place within the park.
    Senator Barrasso. Ok. I just want to make sure we're not 
putting quantity ahead of quality. We have two jewels of the 
Park System in Wyoming with Yellowstone National Park, Grand 
Teton National Park.
    I have significant concerns with upkeep and with backlog of 
projects that need to be done. I want to make sure that we can 
focus what we have on getting that done.
    I am encouraged by what I read about in the statement: 
``Sylvan Pass is to be kept open and requires funding for 
avalanche management,'' which is critical to us in Wyoming. It 
has been an area of discussion and contention. I'm delighted to 
see that this has been included because management of the pass 
and of the East entrance to Yellowstone have both been very 
important to the local communities.
    I know you have an issue about the $716,000 and 2.7 full 
time equivalents who are going to be utilized to implement the 
winter use decision in Yellowstone National Park. Can you talk 
a little bit about that?
    Mr. Wenk. The winter use at Yellowstone National Park, I 
believe, probably relates directly to the Sylvan Pass and the 
activities that it would take to keep Sylvan Pass open for 
access.
    Senator Barrasso. I was going to submit some questions, but 
I'm fine with this. Thank you.
    Senator Udall. Would you be able to stay for another round 
of questions?
    Senator Barrasso. Yes.
    Senator Udall. Or would you like to continue?
    Senator Barrasso. No, no. That would be alright.
    Senator Udall. Why don't we have another round? I'll do my 
best to stick to a 5-minute timeframe. I think it's good to 
have a Senator from Wyoming here.
    I would like to ask that the LWCF questions or land 
acquisition questions more broadly that Senator Barrasso 
mentioned be submitted for the record. You may have already 
started this process, through acquisitions that are in the 
pipeline and plans that you have. I know even, I would assume, 
although I could be wrong, that in Yellowstone and Grand Teton 
there may still be in holdings. There still may be boundary 
adjustments that we're trying to fix in some cases through the 
LWCF funds or acquisition funds.
    Let me turn to bark beetle. We're experiencing a major 
infestation in Colorado. You don't have to go very far from 
Denver to the West to see it.
    I think Senator Barrasso's State, the same situation is 
unfolding. They, the beetles, are not only killing trees on 
Forest Service lands, they are also having a meal on park 
lands. What are you doing to address the threat? How much are 
you spending on it? Tell us a little bit about your proposal in 
the budget and how much additional funding could you use?
    Mr. Wenk. First of all, we're trying to understand the 
extent of the problem by mapping the outbreaks of Mountain Pine 
beetle within our units. That's actually now going on in all 
our Western States except for North Dakota. Fifty-seven of our 
park units have reported elevated populations of beetle 
infestations.
    We're not addressing the problem from a specific fund 
source. Our Park Superintendents are reprioritizing some of 
their monies within the natural resources program to address 
the problem. We will treat trees as it becomes necessary.
    For example, there might be trees in campgrounds or 
developed areas that we want to make sure are protected. Where 
we're not successful and where trees pose a safety issue we 
will literally remove those trees through hazard tree removal 
programs. But we have not yet identified a special fund source 
to deal with that.
    So we're dealing with it out of park base budgets.
    Mr. Sheaffer. We do get a small amount of money from the 
Forest Service for forest pest control, $800,000 to $1 million 
a year in that year, have for many years.
    Senator Udall. So you do have a cooperative relationship 
with the Forest Service.
    Mr. Sheaffer. BLM, Forest Service.
    Senator Udall. The BLM as well.
    Mr. Sheaffer. Yes, sir.
    Mr. Wenk. To give you an idea of cost, at Rocky Mountain 
National Park, which obviously you're very familiar with, sir, 
there's the belief that there will be a need to remove almost 
one million trees at a cost of about $7 million.
    Senator Udall. Not insignificant. Why we continue to look 
into this issue. Colorado is, I think, citizens in Wyoming as 
well, looking to find ways that the market might add value to 
these trees and therefore help us remove them and reduce fuel 
loads are necessary.
    In some cases, of course, the trees will stay in place. 
They may serve an ecological purpose. They may be difficult to 
reach. But it certainly is an increasing threat, one that 
concerns a lot of us.
    Let me turn to the budget again. Talk to you about the 
funding for public and private partnerships that are 
particularly directed at repairing and improving of the Park 
Service facilities for the 100th anniversary which will be a 
wonderful event. Can you tell me how the money will be spent? 
In other words what's your process for selecting projects and 
how will it differ, if at all, from previous years?
    Mr. Wenk. The 2008 budget appropriated $25 million for that 
purpose. We did not have it in the 2009 budget. We're pleased 
that it is in the 2010 budget.
    We initiated a process in 2008 where we went out to our 
park areas, into our friends organizations. At that time we had 
commitments from friends groups and organizations, I believe 
for projects that were in an excess of $300 million that they 
said they had funding available and ready to go.
    Through our prioritization process, we will try to look 
at--we'll have to re-ask the question. As you know some of the 
economic landscape has changed since that time. Friends groups 
may or may not be in the same position they were in 2008.
    So we will go out with a call once again to our park areas. 
We will ask for those projects that have funding available, 
where all the design and environmental compliance work has been 
done.
    In the cases where there are projects, programs, excuse me, 
and not projects in terms of educational programs, we have many 
requests. We funded many of those as well. We will have the 
opportunity to go through and prioritize again.
    We will set the criteria, which would be very much the same 
criteria as for 2010. We will identify those highest priority 
projects that are ready to go with moneys ready to be spent by 
the friends to match our funds and we'll move forward.
    Senator Udall. So this is $300 million of private money 
ready to be matched with $300 million of public money to 
upgrade and construct facilities?
    Mr. Wenk. There was a commitment. There was a statement by 
our friends group that those funds were available. In not all 
cases were the projects ready to go at the same time.
    But they were saying that the level of funding was 
available. That if it could be that would have been the source 
for matching funds. We have cases where some partners have said 
they will give us more than a one-to-one match.
    For example, they would provide $2 for every $1 of our 
dollars. We would look at all those different opportunities.
    Mr. Sheaffer. In some cases that match would come from a 
State or local government. It's not all private.
    Senator Udall. It's not all. That sounds exciting as long 
as those moneys don't all go to Yellowstone or Grand Teton 
National Park.
    Senator Barrasso.
    Senator Barrasso. I object, Mr. Chairman. I think it should 
all go to Wyoming.
    [Laughter.]
    Senator Barrasso. Thank you. I've got a couple of quick 
last questions. In 1988 the Park Service sold dead timber from 
Yellowstone. Now we're looking at this environment with the 
bark beetle.
    Can we do that in this insect event with the bark beetles 
in terms of selling some of the timber or harvesting?
    Mr. Wenk. I think once again it would be situational. We 
would look at how we would remove timber from, for example, 
campground areas or developed areas and see what might be 
appropriate. I think we'd have to look at each case 
individually and determine what our policies, regulations, and 
laws would allow in each individual case.
    Senator Barrasso. Alright. If you had some additional 
thoughts, I may put a couple of these questions into writing as 
well.
    There have been new regulations in terms of the National 
Park Service. I'm wondering how you're moving forward to meet 
the deadline to allow gun owners to carry weapons in the parks?
    Mr. Wenk. We are working very hard to literally understand 
how the new law affects each park individually. Looking at the 
State law in the political subdivision, if you will, of a 
county or a city requires us to look at every park, every 
location and understand the laws for that political 
subdivision.
    So we are going through that process right now. As you 
might imagine in a place like Yellowstone National Park which 
is in three States and probably four or five different 
counties, the potential would be there to have that law 
enforced in different ways. I don't think that necessarily the 
case in Wyoming. But that's just an example of what we have to 
go through for every park area.
    Senator Barrasso. Then a final question. I'm wondering what 
you've encountered in terms of have there been any delays in 
implementation of the American Reinvestment and Recovery Act 
due to NEPA compliance, NEPA regulations? What, you know, has 
there been money available that you were not able to spend 
because of complying with NEPA?
    Mr. Wenk. Not yet. One of the criteria that we had going 
into this in terms of identifying the projects was to look at 
those projects that were shovel ready or that we were very 
confident would be shovel ready within that timeframe. That 
included completion of the necessary environmental compliance.
    We actually have placed on our list projects in excess of 
the amount of money available so if we do run into an obstacle 
we can remove that project and substitute another high priority 
project in the Service.
    Senator Barrasso. So you don't see a delay in your ability 
to go to shovel ready projects? There are enough shovel ready 
projects available to handle the available funds?
    Mr. Wenk. I believe there's enough shovel ready projects to 
handle the available funds.
    Senator Barrasso. Thank you, Mr. Chairman. No other 
questions.
    Senator Udall. I Thank the Senator from Wyoming for taking 
the time to attend this, I think, very important hearing in the 
Subcommittee on National Parks. I look forward to working with 
him. Perhaps he and I could exchange visits to some of the best 
park units in the whole country.
    Although Senator Burr was here earlier bragging about the 
visitation levels at the Great Smokies National Park.
    Senator Burr. He's left. So let's stick it to the roof with 
the Rocky Mountains then.
    [Laughter.]
    Senator Udall. If I might, let me turn to your programs for 
youth. I know you've committed increasing the number and 
availability of the work programs for our young citizens. Your 
budget documents indicate that the Park Service's goals employ 
nearly 10,000 young people through the Recovery Act funds.
    I assume that's a big increase in the number of young 
people working in the parks. What sort of capacity do you have 
to support that effort, lodging, transportation, supervision? I 
have a couple of teenagers. Actually my son will say he's not a 
teenager, he's in his early twenties.
    But what sort of capacity do you have to manage all those 
groups?
    Mr. Wenk. Mr. Chairman, one of the great opportunities we 
have is to provide employment opportunities in our parks for 
youth. By working with organizations such as the Student 
Conservation Association and others, we do not have to provide 
as much of the administration and housing as we would if we had 
hired them directly. I would ask Mr. Sheaffer if he would add 
some of our capacity issues and programs.
    Mr. Sheaffer. The youth programs we employ in an area are 
mostly using organizations like the Student Conservation 
Association.
    Senator Udall. SCA.
    Mr. Sheaffer. Other public land corps like organizations do 
provide that sort of logistical support, administrative support 
and the like. We also do use Youth Conservation, YCC youth. We 
hire directly. In some of those cases, we are limited by our 
capacity.
    Getting the largest number working through these other 
organizations is the thing we found most successful.
    Senator Udall. My understanding is, and I support this if 
this is in fact the case, that you undertake this mission in 
part to recruit potential future employees. Also it's a part of 
the outreach to communities across America. What do you do to 
ensure that you reach to underrepresented youth, communities in 
urban areas, for example?
    Do you have a conscious approach to drawing those kinds of 
young people into work with the park service?
    Mr. Sheaffer. The organizations, Mr. Chairman, that we deal 
with, do an excellent job. YCC is particularly diverse with 
only just a bit over 50 percent, a bit under 50 percent 
minority representation. The Conservation Corps do well too and 
have been doing better recently with our encouragement.
    So I'd say our diversity numbers have been improving 
substantially. The numbers that you mentioned, the numbers that 
we will be dealing with hopefully over the next 2 years as a 
result of the Recovery Act is kind of unprecedented ground for 
us. So there's a number of things we're going to learn in the 
next 2 years.
    I can assure that the administration, the Secretary is 
interested in seeing that kind of momentum stay with us over 
the next few years and building to even larger numbers. So 
we're going to be learning a lot. We're learning a lot in terms 
of how we actually conduct ourselves with them.
    The agreements that we have are probably going to expand 
the number of groups we deal with in the next few years and 
error is going to be telling us a lot about how we're going go 
to about successfully doing that.
    Senator Udall. Many traditional programs of this type are 
fairly long in the time commitment demand, often at 12 weeks. 
Sometimes, I think with particular shorter summer vacation 
timeframes, it's hard for young adults to be able to generate 
that kind of time. Do you have alternative programs where you 
work with shorter duration or varied levels of commitment for 
these potential volunteers and interns?
    Mr. Sheaffer. You are absolutely right, Mr. Chairman. The 
SCA, for example, tend to run 12- to 14-week programs. But some 
of the other corps groups that we work with have much shorter 
duration programs, as little as 3 to 6 weeks, sometimes 
dictated by the project that we bring to them, and the nature 
of the duration of the project we bring to them.
    So again I think that we'll probably be tapping those kinds 
of sources far greater in the next 18 months than we have in 
the past. So----
    Senator Udall. Is it fair to say that some of the work that 
is done is really project directed and driven? That's my memory 
of how the SCA works. There are other jobs and other employment 
opportunities where it's more general in nature. So do you have 
that mix of reasons that you have the access to these workers?
    Mr. Sheaffer. That is true. In this particular case the 
Recovery Act effort is principally job/project oriented. A lot 
of it is, you know, trail work for example, prevalent.
    But you're right. There are some particularly working 
through SCA where you have some college age folks who can do 
other work and in terms of resource management.
    Senator Udall. Interpretation.
    Mr. Sheaffer. Exotic weed removal and the like. Yes, sir.
    Senator Udall. Education.
    Mr. Sheaffer. That's right. That's right. Our normal 
programs do conduct a number of those things.
    We have a highly successful program; we work through SCA 
hiring business students, graduate business students to come in 
and help the National Park Service. An extraordinary program 
that ultimately, in many cases, leads to employment with the 
Park Service in business activities.
    Senator Udall. I need to do my own homework. But I've long 
followed SCA although in the last few years I haven't directly 
analyzed their balance sheet and their activity. But you're 
implying that SCA still a strong and active and engaged 
organization. Is that correct?
    Mr. Sheaffer. Absolutely, without question.
    Senator Udall. It has a long time partnership with the Park 
Service?
    Mr. Sheaffer. Yes, sir.
    Senator Udall. I think it'd be fair to have the record show 
that Secretary Salazar has a deep commitment to youth 
activities and to youth recruitment. He built a record in 
Colorado when he headed the Department of Natural Resources in 
this area. There are some successful programs in Colorado that 
we look to as an example.
    I know that's been one of his passions. It's a passion of 
his now as Interior Secretary. I assume you both would nod and 
say, yes, that's very, very true. But I wanted to make that 
clear, too.
    Mr. Sheaffer. Made clear to us.
    Senator Udall. Yes. He's made that clear to all of us. Let 
me keep pursuing this area of interest, youth involvement 
particularly in regards to the Recovery Act.
    There was a provision that encouraged the Secretary to use 
the Youth Conservation Corps or the Public Land Corps while 
carrying out Recovery Act projects. We've been talking to that 
point. But recently we've heard that some of your non-Federal 
partners are struggling to come up with a 25 percent non-
Federal match required under these programs.
    Do both the YCC and the Public Lands Corps require a 25 
percent match?
    Mr. Sheaffer. Yes, they do. The authority by which we 
engage with these people, with these groups is the Public Land 
Corps Act which requires the 25 percent match. It's not new to 
them.
    The volume of projects we're sending their way and to some 
degree the lateness with which we're dealing with them this 
season has, I think, caused some problems. But we've heard that 
there may be some difficulties in the----
    Senator Udall. You've heard this concern. Do you think this 
is limiting your ability to engage youth? Do you have any 
flexibility to decrease the amount of this non Federal match?
    Mr. Sheaffer. I don't believe there's any flexibility in 
the current law. I do believe that there are some revisions to 
Public Land Corps Act that are under consideration that would 
give us some flexibility to reduce it. But it is fixed at 25 
percent in the current law, I believe.
    Senator Udall. Any potential that these non Federal youth 
corps entities might be able to use in kind contributions?
    Mr. Sheaffer. In kind is commonly used in that match. Yes, 
sir. Commonly used.
    Senator Udall. I would very much like to work with you all 
as you look at how you can create additional flexibility or 
working within the provisions that are in place. Because we 
have heard those concerns expressed as well.
    Let me, if I might, we're going to adjourn the hearing here 
shortly. But I want to just go back to the Land and Water 
Conservation Fund conversation we had earlier. I know there are 
concerns about whether we purchase additional land, whether we 
have the capacity to manage that land. Do we have the personnel 
to manage it?
    In some cases those are important questions, legitimate 
questions. In other cases, you purchase in holdings or you have 
long planned boundary line adjustments which aren't going to 
demand additional personnel. In fact, the purchase may make it 
easier for the Park Service, Dr. Wenk, to do the work it has to 
do.
    By way of a little historical background the Land and Water 
Conservation Fund was established to help finance important 
land acquisitions on Federal lands including parks. It also has 
a State side element to it. I'm very familiar with this because 
of my family's involvement in the LWCF. I'm also, for the 
record, would like to be known, I'm frustrated that we rarely, 
if ever, actually direct all those Land and Water Conservation 
Funds into the purposes for which they were originally 
designed.
    So those flows, allocation flows, ebb and flow. Can you 
tell me if there's a backlog of land acquisition needs that are 
not being met by LWCF allocations for the parks?
    Dr. Wenk.
    Mr. Wenk. We have a prioritized list of approximately $2 
billion worth of lands that need to be purchased.
    Senator Udall. That's not insignificant.
    Mr. Wenk. That's not insignificant.
    Senator Udall. I think it calls for a--and I'm 
editorializing, but for direct funding. We've done some work 
through the years. We got very close early in this decade if my 
memory serves me right, very early in this decade.
    The good work of Congressman Young and Congressman Miller 
in the House side and there were Senators over here in a 
bipartisan way to really work to try to find a solution. But we 
fell short. But I think this is something we can't let continue 
to just bounce along because of the needs you outlined.
    Of course, there are tremendous opportunities at the State 
side level. There are also additional provisions in LWCF that 
draw people of all backgrounds and all ages into the out of 
doors. So I'm deeply committed to continue to see if we can't 
find a way to do that.
    Mr. Wenk. We have identified just and sort of the order of 
magnitude, Mr. Chairman, that's the priority list. We believe 
there's about another $2 billion that has not yet been 
prioritized.
    Senator Udall. That's excellent--thank you for taking the 
time to come over today for the first hearing on this 
subcommittee on National Parks. I want to in particular, Mr. 
Wenk, Mr. Sheaffer, thank you for your service to a unique and 
special American institution, the National Park Service.
    It's long been said and I think it will long be said that 
the National Parks may be America's best idea. Thank you for 
the leadership you provide. I look forward to working with you 
and the Secretary to really give the National Park Service the 
support and the resources it needs as we approach the 100th 
anniversary of the Park Service's founding.
    We'll leave the record open for 2 weeks for additional 
statements and questions for the record.
    This hearing is now adjourned.
    [Whereupon, at 3:31 p.m. the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

    Responses of Daniel N. Wenk to Questions From Senator Murkowski

    Question 1. How much of the stimulus spending for the National Park 
Service is going to be for projects not on Park Service lands?
    Answer. Of the $750 million appropriated under the American 
Recovery and Reinvestment Act for the National Park Service (NPS), $15 
million is designated for grants to Historically Black Colleges and 
Universities, which are not NPS properties. Of the remaining $735 
million funded for work in NPS units, $363,000 is targeted for work on 
two affiliated properties which are not owned by the NPS but for which 
the NPS has authority and responsibilities to perform capital 
improvement work. These two merit-based, high-priority projects are at 
the Ice Age National Scenic Trail in Wisconsin and the Thomas Cole 
National Historic Site in New York.
    Question 2. Earlier this year Director Wenk sent out notice that 
lead ammunition and fishing tackle would be prohibited in park units. 
The statement was later modified to indicate that the ban only applied 
to park employees. However, this clarification does not clarify your 
earlier statement that you will ``eliminate'' the use of lead ``by the 
end of 2010.'' How do you reconcile these conflicting statements and 
what should sportsmen expect from the park service in the future?
    Answer. On March 4 2009, Acting Director Dan Wenk issued an 
internal memo regarding the NPS intent to remove lead from a variety of 
natural resource-related activities within NPS units. The memo stated 
that the NPS will first work towards cessation of lead use for in-house 
activities by (1) implementing non-lead ammunition use in NPS wildlife 
culling operations so that meat can be safely donated, (2) dispatching 
sick or wounded wildlife in parks with non-lead ammunition where 
carcasses are left in the field for scavengers, and (3) continuing to 
clean up firing ranges within NPS boundaries. These reduction efforts 
are currently underway.
    A clarifying statement was released on March 18, shortly after the 
original press release. It stated that the NPS will look at the 
potential for transition to non-lead ammunition and fishing tackle by 
working with our policy office and appropriate stakeholders and other 
interested groups. This process will require public involvement, 
comment, and review. Currently, our staff is working on a careful 
analysis of the law and policy that addresses the use of lead and ways 
they may apply to activities in national parks. Once the analysis is 
finished, a strategy for completing the next steps in the process will 
be developed.
    Current regulations pertaining to hunting or fishing in NPS units 
still apply and have not been changed. Some state wildlife management 
agencies and sportsmen's groups are concerned that this is a move to 
reduce hunting and fishing in national park units. It is not. It is a 
proactive initiative to ensure that the NPS is a leader in 
environmental conservation and that park units and resources are 
preserved and managed to the high standards that the American public 
expects of the agency.
    Question 3. What plans are being made to facilitate the restoration 
of 2nd Amendment rights in National Parks? Have you considered 
consulting with the BLM or the Forest Service on this issue? Has 
Secretary Salazar given you any indication that he will seek to impede 
the clear will of the Senate on this matter?
    Answer. The National Park Service will follow Congress's directive 
and implement the new firearms law, which states that its provisions 
will take effect nine months from the date of enactment. On BLM land 
generally, state and local agencies enforce laws related to firearms. 
We consulted with the U.S. Forest Service during our attempts to find a 
comprehensive database of state firearms laws. Secretary Salazar 
directed the National Park Service to implement the firearms law.


</pre></body></html>
